No. 21-164
IN THE

Supreme Court of the United States
TRUSTEES OF THE NEW LIFE IN CHRIST CHURCH,
Petitioners,
v.
CITY OF FREDERICKSBURG, VIRGINIA,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Reply Brief for Petitioners contains 2,849 words and complies with the word
limitation established by Rule 33.1(g)(iii) of the Rules of this Court.
Dated: September 22, 2021

/s/ Allyson N. Ho
Allyson N. Ho

